INDEX

TO

APPENDIX

A.

Order
Court of Appeals for the Ninth Circuit ........................................................ 01
Filed 5/10/2021

B.

Memorandum
Court of Appeals for the Ninth Circuit ........................................................ 02
Filed 4/1/2021

C.

Order Denying Petition for Writ of Habeas Corpus
United States District Court, District of Nevada ........................................ 09
Filed 12/2/2019

D.

Order of Reversal and Remand
Nevada Supreme Court ................................................................................ 22
Filed 1/20/2009

E.

Second Amended Judgment of Conviction (Jury Trial)
Eighth Judicial District Court ...................................................................... 27
Filed 3/14/2012

F.

Instructions to the Jury (Instructions No. I)
Eighth Judicial District Court ...................................................................... 30
Filed 12/2/1996

1

App.0001

Case: 19-17514, 05/10/2021, ID: 12107683, DktEntry: 26, Page 1 of 1

FILED
MAY 10 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

TANIKO C. SMITH,
Petitioner-Appellant,
v.
BRIAN E. WILLIAMS, Sr.; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-17514

D.C. No.
2:12-cv-00952-APG-VCF
District of Nevada,
Las Vegas

ORDER

Respondents-Appellees.

Before: FERNANDEZ, SILVERMAN, and N.R. SMITH, Circuit Judges.
The panel has voted to deny Appellant’s petition for rehearing and
recommended denial of the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
active judge has requested a vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

App.0002

(1 of 7)

Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-1, Page 1 of 3

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 1 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

TANIKO C. SMITH,

No.

Petitioner-Appellant,

19-17514

D.C. No.
2:12-cv-00952-APG-VCF

v.
BRIAN E. WILLIAMS, Sr.; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MEMORANDUM*

Respondents-Appellees.

Appeal from the United States District Court
for the District of Nevada
Andrew P. Gordon, District Judge, Presiding
Submitted March 31, 2021**
San Francisco, California
Before: FERNANDEZ, SILVERMAN, and N.R. SMITH, Circuit Judges.
Nevada state prisoner Taniko C. Smith appeals from the district court’s
judgment denying his 28 U.S.C. § 2254 habeas corpus petition. We have

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

App.0003
Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-1, Page 2 of 3

jurisdiction under 28 U.S.C. § § 1291 and 2253. We review the district court’s
decision de novo, see Smith v. Ryan, 823 F.3d 1270, 1278 (9th Cir. 2016), and we
affirm.
Smith contends that the aiding and abetting instruction given at his trial
violated due process because it eliminated the specific intent element required to
prove murder and attempted murder. Under the Antiterrorism and Effective Death
Penalty Act (AEDPA), we give considerable deference to state court decisions.
Habeas relief may only be granted if the adjudication “resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established
federal law, as determined by the Supreme Court of the United States” or “resulted
in a decision that was based on an unreasonable determination of the facts in light
of the evidence presented in the state court proceeding.”1 28 U.S.C. § 2254(d); see
also Harrington v. Richter, 562 U.S. 86, 100 (2011). Neither is present in this
case. The challenged instruction amply informed the jury of the requisite mental
state and did not have “the effect of relieving the State of the burden of proof” on
this critical question. See Sandstrom v. Montana, 442 U.S. 510, 521 (1979); see
also Waddington v. Sarausad, 555 U.S. 179, 190-92 (2009).

1

Even if we were to agree with Smith that de novo review applied, his claim
would still fail.
2

(2 of 7)

App.0004
Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-1, Page 3 of 3

AFFIRMED.

3

(3 of 7)

App.0005

(4 of 7)

Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)

(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

App.0006

(5 of 7)

Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-2, Page 2 of 4
►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

App.0007

(6 of 7)

Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

App.0008

(7 of 7)

Case: 19-17514, 04/01/2021, ID: 12060348, DktEntry: 24-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name]” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
No. of
Copies

DOCUMENTS / FEE PAID
Excerpts of Record*

Pages per
Cost per Page
Copy

I

1 1

I

Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

I

1 1

I

Reply Brief / Cross-Appeal Reply Brief

I
I

Principal Brief(s) (Opening Brief; Answering

$

I

I

$

I

I

$

$

I

I

$

I

I

$

I
Supplemental Brief(s)
$
I
Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee
$
I
TOTAL: $
I
1 1

I

1 1

I

I
$
I

TOTAL
COST

I

I

I

I

I

I

*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 10

Rev. 12/01/2018

App.0009
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 1 of 13

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3 TANIKO C. SMITH,
4

Petitioner

Case No.: 2:12-cv-00952-APG-VCF
Order

5 v.
6 BRIAN E. WILLIAMS, SR., et al.,
7

Respondents.

8
9

Taniko C. Smith, a Nevada prisoner, filed a petition for a writ of habeas corpus under 28

10 U.S.C. § 2254. I deny Smith’s habeas petition, grant him a certificate of appealability, and direct
11 the Clerk of the Court to enter judgment accordingly.
12 I.

BACKGROUND

13

In my previous order, dated September 30, 2015, I described the crime as revealed by the

14 evidence at Smith’s trial as follows:
15
16
17
18

Petitioner and three others robbed Christopher Brown and Mario Wesley in the
parking lot of a restaurant. Brown grabbed his gun, shot at the robbers, in turn was
shot through the legs, and fled. Wesley laid on the ground pleading for his life.
Petitioner and the three others started walking away. One of the other robbers,
Richard Gaston, turned around and shot Wesley. Petitioner stood by while this
happened. Then all four together walked away from the restaurant. Wesley later
died.

19 ECF No. 54 at 6 (citing ECF No. 39 at 59-60). Following a jury trial, Smith was found guilty of
20 first-degree murder with the use of a deadly weapon, attempted murder with the use of a deadly
21 weapon, two counts of robbery with the use of a deadly weapon, and attempted robbery with the
22 use of a deadly weapon. ECF No. 40-10. The Nevada Supreme Court affirmed Smith’s
23 convictions on December 3, 1998. ECF No. 41-3.

App.0010
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 2 of 13

1

Smith filed a federal habeas petition on December 2, 1999, case number CV-S-99-1691-

2 PMP-LRL. ECF No. 41-5. This court dismissed the petition because Smith had not exhausted
3 his available state-court remedies. ECF No. 41-10. Smith filed a state habeas petition on October
4 30, 2000. ECF No. 41-13, 41-14, 41-17. The state district court denied Smith’s petition, and the
5 Nevada Supreme Court affirmed, determining that the petition was untimely under Nev. Rev.
6 Stat. § 34.726(1). ECF No. 41-26, 41-27.
7

On January 30, 2002, Smith filed another state habeas petition. ECF No. 41-29, 42. The

8 state district court denied the petition, and the Nevada Supreme Court affirmed, again
9 determining that the petition was untimely. ECF No. 42-11, 42-18. The Nevada Supreme Court
10 denied rehearing on May 13, 2003. ECF No. 42-20.
11

While Smith’s second state habeas petition was pending, he filed another federal habeas

12 petition in this court on March 26, 2002, case number CV-N-02-0121-HDM-VPC. ECF No. 4213 4. This court appointed the Federal Public Defender to represent Smith. ECF No. 42-3. Smith
14 filed a counseled, amended petition, and the respondents moved to dismiss. ECF No. 42-13, 4215 15. This court determined that the petition was untimely under 28 U.S.C. § 2244(d) and denied a
16 certificate of appealability. ECF No. 43, 43-4. The Ninth Circuit denied a certificate of
17 appealability. ECF No. 43-6.
18

On April 8, 2005, Smith moved to correct an illegal sentence in the state district court.

19 ECF No. 43-8. The state district court denied the motion. ECF No. 43-11. The Nevada Supreme
20 Court affirmed, noting that Smith’s arguments were outside the narrow scope allowed for such a
21 motion, that the doctrine of the law of the case prevented further litigation of the issues raised by
22 Smith, and that Smith’s claims did not appear to implicate the jurisdiction of the state district
23 court. ECF No. 43-13.

2

App.0011
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 3 of 13

1

Smith filed another federal habeas petition on January 25, 2006, case number 3:06-cv-

2 00003-RCJ-VPC. ECF No. 43-15. This court dismissed the action as successive under 28 U.S.C.
3 § 2244(b). ECF No. 43-17. The Ninth Circuit denied Smith’s application for authorization to file
4 a successive federal habeas petition. ECF No. 43-20. On August 14, 2006, Smith filed another
5 federal habeas petition, case number 06-cv-00976-RCJ-RJJ. ECF No. 43-21. The respondents
6 moved to dismiss the petition. ECF No. 44-1. This court granted the motion. ECF No. 44-13.
7

On January 31, 2007, Smith filed another state habeas petition. ECF No. 44. The state

8 district court granted Smith’s petition, overturning his convictions for murder and attempted
9 murder and vacating his sentence. ECF No. 44-6. The state district court entered an amended
10 judgment of conviction on August 21, 2007. ECF No. 44-5. On January 20, 2009, the Nevada
11 Supreme Court reversed and remanded, finding that the petition was untimely under Nev. Rev.
12 Stat. § 34.726 and that Smith had not shown good cause to excuse the procedural defect. ECF
13 No. 44-14. The Nevada Supreme Court denied rehearing and en banc reconsideration. ECF No.
14 44-16, 44-19. The United States Supreme Court denied Smith’s petition for a writ of certiorari.
15 ECF No. 45-3.
16

On July 2, 2009, before the state district court did anything on the remand, Smith asked

17 the Ninth Circuit for authorization to file a successive petition, case number 09-72049. ECF No.
18 45. The Ninth Circuit denied the application on January 20, 2010. ECF No. 45-5. On March 14,
19 2012, the state district court entered a second amended judgment of conviction, reinstating the
20 convictions and sentences for first-degree murder and attempted murder. ECF No. 45-6. Smith
21 appealed, and the Nevada Supreme Court affirmed on May 15, 2013. ECF No. 46-3.
22
23

3

App.0012
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 4 of 13

1

Smith filed another federal habeas petition on April 5, 2012, case number 2:12-cv-00570-

2 GMN-PAL. ECF No. 45-8. This court dismissed the petition without prejudice due to Smith’s
3 failure to submit an in forma pauperis application. ECF No. 45-9.
4

Smith’s current federal habeas petition was filed on August 8, 2012. ECF No. 5. Smith

5 moved to amend this petition on August 17, 2012. ECF No. 6. The respondents opposed the
6 motion arguing, among other things, that this petition was successive. ECF No. 9-1. This court
7 issued an order on August 23, 2012, for Smith to show cause why his present petition should not
8 be dismissed as a successive petition due to his failure to first obtain an order from the Ninth
9 Circuit authorizing this court to consider the petition. ECF No. 11. Smith responded to the order
10 to show cause on September 4, 2012. ECF No. 13. On April 11, 2013, this court found that
11 Smith had shown good cause not to dismiss his petition for being successive; however, this
12 court’s review of the state-court dockets revealed the possibility that this action was premature
13 and unexhausted. ECF No. 14. Thus, this court issued another order to show cause why this
14 court should not dismiss the action for lack of exhaustion. Id. Thereafter, this action was
15 reassigned to me for all further proceedings. ECF No. 17.
16

Smith moved to stay the proceedings, for a status check, for clarification, for the

17 appointment of counsel, and to lift the stay. ECF No. 15, 24, 25, 26, 27. The respondents moved
18 for reconsideration of the April 11, 2013 order. ECF No. 19. On May 28, 2014, I denied the
19 respondents’ motion for reconsideration, granted Smith’s previous motion to amend, appointed
20 counsel for Smith, and denied Smith’s motions for a stay, for a status check, for clarification, and
21 to lift the stay. ECF No. 29. I also explained that the question of exhaustion was no longer an
22 issue following the Nevada Supreme Court’s order dated May 15, 2013. Id.
23

4

App.0013
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 5 of 13

1

Smith filed a counseled, amended petition and an errata to the amended petition on

2 November 17, 2014, and December 5, 2014, respectively. ECF No. 35, 47. The respondents
3 moved to dismiss Smith’s amended petition. ECF No. 49. On September 30, 2015, I granted the
4 motion, dismissed the action with prejudice as untimely, and directed the clerk of the court to
5 close this action. ECF No. 54. In my analysis of whether Smith established actual innocence to
6 excuse a violation of the statute of limitations, I concluded that the aiding and abetting jury
7 instruction used at Smith’s trial complied with Sharma v. State, 118 Nev. 648, 56 P.3d 868
8 (2002). Id. at 5. Judgment was entered in favor of the respondents. ECF No. 55.
9

Smith appealed. ECF No. 56. On September 8, 2017, the Ninth Circuit reversed the

10 dismissal of the petition, holding that “whenever there is a new judgment by the state court, the
11 procedural limitation on second or successive habeas petitions under AEDPA applies anew.”
12 ECF No. 62 at 7. The Ninth Circuit remanded the matter for further proceedings. Id. at 11. The
13 Ninth Circuit also indicated that “[t]here is no procedural hurdle to Smith’s making his Sharma
14 claims on the merits,” and if I “reject[ ] that claim on the merits, Smith will then have the
15 opportunity to appeal that decision.” Id. at 11.
16

Smith moved for dismissal of Ground Two and Ground Three of his amended petition.

17 ECF No. 66. I granted the motion. ECF No. 67. Accordingly, Smith’s amended petition
18 contains only a single remaining ground: the aiding and abetting jury instruction used at his trial
19 violated Sharma. ECF No. 35. The respondents answered this remaining ground (ECF No. 76)
20 and Smith filed a reply (ECF No. 79).
21 II.

STANDARD OF REVIEW

22

28 U.S.C. § 2254(d) sets forth the standard of review generally applicable in habeas

23 corpus cases under the Antiterrorism and Effective Death Penalty Act (“AEDPA”):

5

App.0014
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 6 of 13

1
2

An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be granted with respect to any claim that
was adjudicated on the merits in State court proceedings unless the adjudication of
the claim –

3
4

(1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States; or

5
6

(2) resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.

7 A state court decision is contrary to clearly established Supreme Court precedent, within the
8 meaning of 28 U.S.C. § 2254, “if the state court applies a rule that contradicts the governing
9 law set forth in [the Supreme Court’s] cases” or “if the state court confronts a set of facts that
10 are materially indistinguishable from a decision of [the Supreme] Court.” Lockyer v. Andrade,
11 538 U.S. 63, 73 (2003) (quoting Williams v. Taylor, 529 U.S. 362, 405-06 (2000), and citing
12 Bell v. Cone, 535 U.S. 685, 694 (2002)). A state court decision is an unreasonable application
13 of clearly established Supreme Court precedent within the meaning of 28 U.S.C. § 2254(d) “if
14 the state court identifies the correct governing legal principle from [the Supreme] Court’s
15 decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 75
16 (quoting Williams, 529 U.S. at 413). “The ‘unreasonable application’ clause requires the state
17 court decision to be more than incorrect or erroneous. The state court’s application of clearly
18 established law must be objectively unreasonable.” Id. (quoting Williams, 529 U.S. at 409-10)
19 (internal citation omitted).
20

The Supreme Court has instructed that “[a] state court’s determination that a claim lacks

21 merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the
22 correctness of the state court’s decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011) (citing
23 Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). The Supreme Court has stated “that even a

6

App.0015
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 7 of 13

1 strong case for relief does not mean the state court’s contrary conclusion was unreasonable.” Id.
2 at 102 (citing Lockyer, 538 U.S. at 75); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
3 (describing the standard as a “difficult to meet” and “highly deferential standard for evaluating
4 state-court rulings, which demands that state-court decisions be given the benefit of the doubt”
5 (internal quotation marks and citations omitted)).
6 III.

DISCUSSION

7

Smith argues that his federal constitutional rights were violated when the jury convicted

8 him under a faulty aiding and abetting liability theory that did not require the State to prove all
9 the elements of the crime. ECF No. 35 at 10. Specifically, Smith contends the aiding and
10 abetting jury instruction improperly failed to provide that the State must prove that he had the
11 specific intent to commit murder and attempted murder; rather, the instruction only contained a
12 general intent requirement. Id. at 12; ECF No. 79 at 20. Smith contends that this error cannot
13 be considered harmless because the evidence did not demonstrate his guilt for murder and
14 attempted murder under any of the three alternative theories of liability. ECF No. 35 at 14-16.
15 Contrarily, the respondents argue that the aiding and abetting jury instruction required the jury
16 to find specific intent and that any error was harmless because there was sufficient evidence of
17 Smith’s specific intent to convict him of murder and attempted murder. ECF No. 76 at 5-6.
18

In the State’s appeal of the order granting Smith’s state habeas petition, the Nevada

19 Supreme Court held:
20
21
22

In his petition, respondent asserted that his convictions for murder with the use of
a deadly weapon and attempted murder with the use of a deadly weapon were based
on aiding and abetting jury instructions that violated Sharma v. State. He claimed
that this court’s decision in Mitchell v. State, which held that Sharma should be
applied retroactively, constituted good cause for his failure to raise this claim in a
timely petition.

23

7

App.0016
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 8 of 13

1
2
3
4
5
6
7
8
9

We conclude that the district court erred in finding that respondent demonstrated
good cause sufficient to excuse his procedural defects. In Sharma, we rejected the
natural and probable consequences doctrine and held that “in order for a person to
be held accountable for the specific intent crime of another under an aiding and
abetting theory of principal liability, the aider and abettor must have knowingly
aided the other person with the intent that the other person commit the charged
crime.” In Mitchell, this court held that Sharma was a clarification of the law. As
Sharma reflects a clarification of the law, the underlying reasoning in Sharma
existed at the time of respondent’s trial and presented a basis for which appellant
could have presented a claim on direct appeal. Additionally, respondent failed to
establish prejudice. The jury was not instructed in accordance with the natural and
probable consequences doctrine. Rather, the jury was properly instructed “[a]
person aids and abets the commission of a crime if he knowingly and with criminal
intent aids, promotes, encourages or instigates by act or advice, the commission of
such crime.” Therefore, we conclude that the district court erred in finding that
respondent established good cause and prejudice to excuse the filing of an untimely
habeas petition.

10 ECF No. 44-14 at 3-6. The Nevada Supreme Court’s ruling regarding the merits of Smith’s
11 claim was reasonable.
12

The Amended Indictment accused Smith of murder with the use of a deadly weapon

13 “under the following theories of criminal liability, to-wit: (1) Premeditation; (2) Felony
14 Murder . . . ; (3) Aiding or Abetting.” ECF No. 36-14 at 2-3. The Amended Indictment also
15 accused Smith of attempted murder with the use of a deadly weapon and provided that Smith, his
16 co-defendant Richard Gaston, Darnell Robinson, and Rodney Harris “aid[ed] or abet[ed] each
17 other by counsel and encouragement and by entering into a course of conduct.” Id. at 3. The jury
18 was instructed regarding aiding and abetting as follows:
19
20
21
22
23

Where two or more persons are accused of committing a crime together, their guilt
may be established without proof that each personally did every act constituting the
offense charged.
All persons concerned in the commission of a crime who either directly or actively
commit the act constituting the offense or who knowingly and with criminal intent
aid and abet in its commission or, whether present or not, who advise and encourage
its commission, are regarded by the law as principals in the crime thus committed
and are equally guilty thereof.

8

App.0017
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 9 of 13

1
2
3

A person aids and abets the commission of a crime if he knowingly and with
criminal intent aids, promotes, encourages or instigates by act or advice, or by act
and advice, the commission of such crime.
The state is not required to prove precisely which defendant actually committed the
crime and which defendant aided and abetted.

4
5 ECF No. 40-2 at 55 (Jury Instruction No. 44). Regarding intent generally, the jury was
6 instructed: “[i]ntent refers only to the state of mind with which the act is done.” Id. at 22. The
7 jury found Smith guilty of murder with the use of a deadly weapon and attempted murder with
8 the use of a deadly weapon. ECF No. 40-3 at 2-3. The jury’s reliance on a particular theory of
9 liability is unclear. Cf. Hedgpeth v. Pulido, 555 U.S. 57, 58 (2008) (“A conviction based on a
10 general verdict is subject to challenge if the jury was instructed on alternative theories of guilt
11 and may have relied on an invalid one.”). The jury later confirmed that its verdict for murder
12 with the use of a deadly weapon was first-degree murder. ECF No. 40-4 at 10-11.
13

Issues relating to jury instructions are not cognizable in federal habeas corpus unless they

14 violate due process. Estelle v. McGuire, 502 U.S. 62, 72 (1991); see also Gilmore v. Taylor, 508
15 U.S. 333, 342 (1993) (“[W]e have never said that the possibility of a jury misapplying state law
16 gives rise to federal constitutional error.”). The question is “‘whether the ailing instruction by
17 itself so infected the entire trial that the resulting conviction violates due process’, . . . not merely
18 whether ‘the instruction is undesirable, erroneous, or even universally condemned.’” Henderson
19 v. Kibbe, 431 U.S. 145, 154 (1977) (quoting Cupp v. Naughten, 414 U.S. 141, 146-47 (1973)).
20 Furthermore, jurors are presumed to follow the instructions that they are given. United States v.
21 Olano, 507 U.S. 725, 740 (1993). Even if an instruction contains constitutional errors, the court
22 must then “apply the harmless-error analysis mandated by Brecht[ v. Abrahamson, 507 U.S. 619
23

9

App.0018
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 10 of 13

1 (1993)].” Calderon v. Coleman, 525 U.S. 141, 146 (1998). The question is whether the error had
2 a “substantial and injurious effect or influence in determining the jury’s verdict.” Id. at 145.
3

At the time of Smith’s trial in 1996, the law in Nevada on the mental state required to

4 convict an aider or abettor was inconsistent. See Sharma v. State, 56 P.3d 868, 872 (Nev.
5 2002). “In one line of cases, for example, [the Nevada Supreme Court] required the State to
6 show that the defendant knowingly and intentionally aided another to commit the charged
7 crime.” Id. (citing Tanksley v. State, 944 P.2d 240 (Nev. 1997), as an illustrative example of
8 this line of cases). Following Smith’s trial, in 1998, the Nevada Supreme Court abandoned this
9 line of cases and instead adopted the “natural and probable consequences doctrine,” which held
10 “aiders and abettors . . . criminally responsible for all harms that [we]re a natural, probable, and
11 foreseeable result of their actions.” Mitchell v. State, 971 P.2d 813, 820 (Nev. 1998), overruled
12 in relevant part by Sharma, 56 P.3d at 872. Years later in 2002, the Nevada Supreme Court
13 stepped back from Mitchell and narrowed the definition of aiding and abetting by holding that
14 “in order for a person to be held accountable for the specific intent crime of another under an
15 aiding or abetting theory of principal liability, the aider or abettor must have knowingly aided
16 the other person with the intent that the other person commit the charged crime.” Sharma, 56
17 P.3d at 872; see also Bolden v. State, 124 P.3d 191, 200-01 (Nev. 2005) (holding that “a
18 defendant may not be held criminally liable for the specific intent crime committed by a
19 coconspirator simply because that crime was a natural and probable consequence of the object
20 of the conspiracy”), overruled on other grounds by Cortinas v. State, 195 P.3d 315, 324 (Nev.
21 2008). First degree murder and attempted murder are specific-intent crimes. See Keys v. State,
22 766 P.2d 270, 273 (Nev. 1988); Hancock v. State, 397 P.2d 181, 182 (Nev. 1964).
23

10

App.0019
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 11 of 13

1

The heart of Smith’s argument is that a petitioner’s due process rights are violated if a

2 jury instruction “ha[s] the effect of relieving the State of the burden of proof enunciated in
3 Winship on the critical question of petitioner’s state of mind.” Sandstrom v. Montana, 442 U.S.
4 510, 521 (1979); see also In re Winship, 397 U.S. 358, 364 (1970) (“[T]he Due Process Clause
5 protects the accused against conviction except upon proof beyond a reasonable doubt of every
6 fact necessary to constitute the crime with which he is charged.”); Evanchyk v. Stewart, 340 F.3d
7 933, 939 (9th Cir. 2003) (“It is a violation of due process for a jury instruction to omit an
8 element of the crime.”). The issue at hand is whether Jury Instruction No. 44 ran afoul of
9 Sharma by eliminating the requirement that the jury find that Smith had the requisite mental
10 state, thus violating his due process rights. It did not.
11

The Nevada Supreme Court held that Sharma “applies to cases that were final [at the

12 time] it was decided” because “Sharma was a clarification of the law, not a new rule.” Mitchell v.
13 State, 149 P.3d 33, 38-39 (Nev. 2006).1 Because Sharma merely clarified the law, its
14 renouncement of the “natural and probable consequences doctrine” signaled a return to the line
15 of cases, illustrated by Tanksley, that “required the State to show that the defendant knowingly
16 and intentionally aided another to commit the charged crime.” Sharma, 56 P.3d at 871. Jury
17 Instruction No. 44’s language mirrors this requirement: “A person aids and abets the commission
18 of a crime if he knowingly and with criminal intent aids, promotes, encourages or instigates by
19
20

1

Smith argues that “[t]he Nevada Supreme Court found a Sharma violation based on
the[ ] instructions in Mitchell,” which were identical to the instructions used in his case. ECF No.
21
79 at 19-20. However, the Nevada Supreme Court merely concluded that Sharma “applied to
Mitchell,” and “under Sharma, Mitchell should not have been convicted of attempted murder as
22
an aider or abettor unless he . . . had the specific intent that [the victim] be killed.” Mitchell, 149
P.3d at 38. The Nevada Supreme Court then vacated the conviction in Mitchell because the State
23
“acknowledged that Mitchell did not have the specific intent to kill.” Id. The Nevada Supreme
Court did not analyze the instructions used in Mitchell.
11

App.0020
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 12 of 13

1 act or advice, or by act and advice, the commission of such crime.” ECF No. 40-2 at 55.
2 Accordingly, as I held previously, “the instruction actually given at trial satisfies the
3 requirements of Sharma.” ECF No. 54 at 6. The Nevada Supreme Court, the final arbiter of the
4 Nevada law reflected in the jury instruction, read the instruction in the same way. ECF No. 44-14
5 at 5. Because Smith fails to establish that the jury instructions “‘so infected the entire trial that
6 the resulting conviction violates due process’” (Henderson, 431 U.S. at 154), the Nevada
7 Supreme Court’s ruling was not contrary to, or an unreasonable application of, clearly
8 established federal law as determined by the Supreme Court. 28 U.S.C. § 2254(d). I deny Smith
9 habeas corpus relief.2
10

The standard for the issuance of a certificate of appealability requires a “substantial

11 showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c). “Where a district court has
12 rejected the constitutional claims on the merits, the showing required to satisfy § 2253(c) is
13 straightforward: The petitioner must demonstrate that reasonable jurists would find the district
14 court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S.
15 473, 484 (2000); see also James v. Giles, 221 F.3d 1074, 1077-79 (9th Cir. 2000).
16

Reasonable jurists could debate my conclusion that Smith’s due process rights were not

17 violated. The Nevada Supreme Court explained that Sharma was not a new rule. But its
18 ultimate holding in Sharma was a retreat to an earlier line of cases and might be read to establish
19 a narrower requirement than some of those earlier cases regarding the mental state required to
20 convict an aider and abettor of a specific-intent crime. Compare Sharma, 56 P.3d at 871
21
22

2

Smith argues I should conduct an evidentiary hearing to properly review this claim.
ECF No. 79 at 26. Because I decided this claim based on a legal issue such that a harmless-error
23
analysis and a review of the facts is unnecessary, further factual development is also
unnecessary. See 28 U.S.C. § 2254(e)(2).
12

App.0021
Case 2:12-cv-00952-APG-VCF Document 84 Filed 12/02/19 Page 13 of 13

1 (explaining that “[i]n one line of cases” before the adoption of the natural and probable
2 consequences doctrine, the law “required the State to show that the defendant knowingly and
3 intentionally aided another to commit the charged crime”), with Sharma, 56 P.3d at 871
4 (“hold[ing] that in order for a person to be held accountable for the specific intent crime of
5 another under an aiding or abetting theory of principal liability, the aider or abettor must have
6 knowingly aided the other person with the intent that the other person commit the charged
7 crime.” (Emphasis added)). Because Jury Instruction No. 44 did not contain the additional intent
8 language, reasonable jurists could find debatable my conclusion that Smith’s due process rights
9 were not violated. See Nelson v. State, 123 Nev. 534, 548-49, 170 P.3d 517, 527 (2007)
10 (impliedly affirming the following jury instruction: “A person aids and abets the commission of a
11 crime if he knowingly and with criminal intent aids, promotes, encourages or instigates by act or
12 advice, or by act and advice, the commission of such crime with the intention that the crime be
13 committed” (emphasis added)). Accordingly, I grant Smith a certificate of appealability.
14 V.

CONCLUSION

15

I THEREFORE ORDER that the First Amended Petition for a Writ of Habeas Corpus by

16 a Person in State Custody Pursuant to 28 U.S.C. § 2254 (ECF No. 35) is DENIED.
17

I FURTHER ORDER that Smith is granted a certificate of appealability.

18

I FURTHER ORDER the Clerk of the Court to enter judgment accordingly.

19

Dated: December 2, 2019.

20
21

ANDREW
P. GORDON
AN
NDREW P
UNITED STATES DISTRICT JUDGE

22
23

13

App.0022
An unpublish d order shall not be regarded as precedent and shall not be cited as legal authority. SCR 123.

Case 2:12-cv-00952-APG-VCF Document 44-14 Filed 11/17/14 Page 2 of 6

IN THE SUPREME COURT OF THE STATE OF NEVADA

THE STATE OF NEVADA,
Appellant,
vs.
TANIKO CURT SMITH,
Respondent.

No. 50122

FILED

ORDER OF REVERSAL AND REMAND

This is the State's appeal from an order of the district court
granting respondent's post-conviction petition for a writ of habeas corpus,
Eighth Judicial District Court, Clark County; Lee A. Gates, Judge.
On May 2, 1997, the district court convicted respondent,
pursuant to a jury verdict, of one count of first-degree murder with the use
of a deadly weapon (Count 1), one count of attempted mll;rder with the use
of a deadly weapon (Count 2), two counts of robbery with the use of a
deadly weapon (Counts 3 and 4), and one count of attempted robbery with
the use of a deadly weapon (Count 5).

The district court sentenced

respondent to serve two equal and consecutive terms of life in the Nevada
State Prison without the possibility of parole for Count 1 with additional
terms totaling sixty years for the remaining counts. This court dismissed
respondent's direct appeal. 1 The remittitur issued on December 22, 1998.
1Smith

v. State, Docket No. 30243 (Order Dismissing Appeal,
December 3, 1998).

SUPREME CouRT
OF

NGVAtJA
(O)l947A....,

App.0023
Case 2:12-cv-00952-APG-VCF Document 44-14 Filed 11/17/14 Page 3 of 6

On October 30, 2000, respondent filed a proper person postconviction petition for a writ of habeas corpus in the district court. On
January 31, 2001, the district court denied respondent's petition as
untimely. This court affirmed the-district court's order on appeal. 2
On January 30, 2002, respondent filed a second proper person
post-conviction petition for a writ of habeas corpus in the district court.
On July 10, 2002, the district court denied respondent's petition as
untimely after conducting an evidentiary hearing. This court affirmed the
district court's order on appeal. 3
On February 23, 2005, respondent filed a motion to correct an
illegal sentence in the district court. The district court denied the motion
on May 18, 2005. This court affirmed the district court's order on appeal. 4
On January 31, 2007, respondent, through counsel, filed a
post-conviction petition for a writ of habeas corpus in the district court.
The State opposed the petition arguing that it was untimely filed.

In

addition, the State specifically pleaded laches. The district court did not
conduct an evidentiary hearing. However, on August 21, 2007, the district
court granted respondent's petition and vacated respondent's convictions
2Smith v. State, Docket No. 37387 (Order of Affirmance, November
20, 2001).

3Smith

v. State, Docket No. 39860 (Order of Affirmance, April 10,

4Smith

v. State, Docket No. 45258 (Order of Affirmance, November

2003).
10, 2005).

SUPREME CoURT
OF

NEVADA
(0) 1947A...,

2

App.0024
Case 2:12-cv-00952-APG-VCF Document 44-14 Filed 11/17/14 Page 4 of 6

for murder with the use of a deadly weapon and attempted murder with
the use of a deadly weapon. This appeal followed.
The State argues that the district court erred in finding that
respondent demonstrated good cause to excuse his delay in filing the
petition.
Respondent filed his petition more than 7 years after this
court issued the remittitur from his direct appeal.
petition was untimely filed. 5

Thus, respondent's

Respondent's petition was procedurally

barred absent a demonstration of good cause and prejudice. 6
. ·In his petition, respondent asserted that his convictions for
murder with the use of a deadly weapon and attempted murder with the
use of a deadly· weapon were based on aiding and abetting jury
instructions that violated Sharma v. State. 7 He claimed that this court's
decision in Mitchell v. State, 8 which held that Sharma should be applied
retroactively, constituted good cause for his failure to raise this claim in a
timely petition.
We conclude that the district court erred in finding that.
respondent demonstrated good cause sufficient to excuse his procedural
defects. In Sharma, we rejected the natural and probable consequences
5

See NRS 34. 726(1).

7

118 Nev. 648, 56 P.3d 868 (2002).

8 122

Nev. 1269, 149 P.3d 33 (2006).

SUPREME CoURT
OF

NEVADA
(0)1947A...,

3

App.0025
Case 2:12-cv-00952-APG-VCF Document 44-14 Filed 11/17/14 Page 5 of 6

doctrine and held that "in order for a person to be held accountable for the
specific intent crime of another under an aiding and abetting theory of
principal liability, the aider and abettor must have knowingly aided the
other person with the intent that the other person commit the charged
crime." 9 In Mitchell, this court held that Sharma was a clarification of the
law .10

As Sharma reflects a clarification of the law, the underlying

reasoning in Sharma existed at the time of respondent's trial and
presented a basis for which appellant could have presented a claim on
direct appeal. 11

Additionally, respondent failed to establish prejudice.

The jury was not instructed in accordance with the natural and probable
consequences doctrine.

Rather, the jury was properly instructed "[a]

person aids and abets the commission of a crime if he knowingly and with
criminal intent aids, promotes, encourages or instigates by act or advice,
the commission of such crime." Therefore, we conclude that the district
court erred in finding that respondent established good cause and

9Sharma,

118 Nev. at 655, 149 P.3d at 872.

10Mitchell,

122 Nev. at 1276, 149 P.3d at 38.

11 See

Colwell v. State, 118 Nev. 807, 819, .59 P.3d 463, 472 (2002)
(stating that if a decision merely construes and clarifies an existing rule
rather than announce a new rule, this court's interpretation is merely a
restatement of existing law).

SUPREME COURT
OF

NEVADA
(0) 1947A...,

4

App.0026
Case 2:12-cv-00952-APG-VCF Document 44-14 Filed 11/17/14 Page 6 of 6

prejudice to excuse the filing of an untimely habeas petition. 12
Accordingly, we
ORDER the judgment of the district court REVERSED AND
REMAND this matter to the district court for proceedings consistent with
this order.
J.

Hardesty

\

R::1"-".~~~~--~%~•~~

J.

Parraguirre

~c~v-=,

lA.s

J.

Douglas

cc:

Hon. Lee A. Gates, District Judge
Attorney General Catherine Cortez Masto/Carson City
Clark County District Attorney David J. Roger
Joel M. Mann, Chtd.
Eighth District Court Clerk

12As

we conclude that appellant's claims were procedurally barred,
we need not discuss the arguments regarding the merits of those claims.

SUPREME COURT

OF

NEVADA
(0) 1947A

~

5

App.0027
Page 2 of 4

1

2

3
4

5

AJOC
STEVEN B. WOLFSON
Clark County District Attorney
Nevada Bar #001565
200 Lewis Avenue
Las Vegas, Nevada 891S5-2212
(702) 671-2500
Attorney for Plaintiff

6

11

M

THE STATE OF NEV ADA,
Plaintiff,

9

10

STEVEN D. GRIERSON
CLERK OF HE COURT

DISTRICT COURT
CLARK COUNTY, NEVADA

7

8

FILED IN OPEN COURT

-vsTANIKO CURT SMITH,
#1044632

CASE NO:

93Cl 15252-1

DEPTNO:

VI

12

Defendant.
13 I I - - - - - - - - - - - - - - ~
14

SECOND AMENDED JUDGMENT OF CONVICTION
(JURY TRIAL)

15

The Defendant previously entered plea(s) of not guilty to the crime(s) of COUNT 1 -

16

MURDER WITH USE OF A DEADLY WEAPON (Felony I Category A); COUNT II -

17

ATTEMPT MURDER WITH USE OF A DEADLY WEAPON (Felony/ Category B);

18

COUNT III, IV, VII - ROBBERY WITH USE OF A DEADLY WEAPON (Felony I

19

Category B); COUNT V - ATTEMPT ROBBERY WITH USE OF A DEADLY WEAPON

20

(Felony/ Category B); and COUNT VIII - GRAND LARCENY AUTO (Felony I Category

21

C), committed on or between July 27, 1993, and August 4, 1993, in violation of NRS

22

200.010, 200.030, 193.165, 193.330, 200.380, 205.220, and the matter having been tried

23

before a jury, and the Defendant being represented by counsel and having been found guilty

24

of the crimes of COUNT I - MURDER IN THE FIRST DEGREE WITH THE USE OF A

25

DEADLY WEAPON (Felony I Category A); COUNT II - ATTEMPT MURDER WITH

26

USE OF A DEADLY WEAPON (Felony/ Category A); COUNTS III & IV - ROBBERY

27

WITH USE OF A DEADLY WEAPON (Felony / Category B); ad COUNT V - ATTEMPT

28

ROBBERY WITH USE OF A DEADLY WEAPON (Felony/ Category B); and
' 93C116262 -1

---..._,
AJDC
Amended Judgment of Conv1cnon
1802028

l l Illlllllllllllllllllllllll 1ll lIll Ill
1

P:\WPDOCS\JUDG\305\30589503.doc

EOR1670

.J

App.0028
Case 2:12-cv-009iAPG-VCF Document 45-6 Filedj/17/14 Page 3 of 4

1

WHEREAS, thereafter, on the 26th day of March, 1997, the Defendant being present

2

in Court with his counsel RICHARD PALMA, Deputy State Public Defender, and

3

CARMINE COLUCCI, ESQ., and LYNN ROBINSON, Deputy District Attorney also being

4

present; the above entitled Court did adjudge Defendant guilty thereof by reason of said trial

5

and verdict and, in addition to the $25.00 Administrative Assessment Fee, sentenced

6

Defendant to the Nevada Department of Prisons for LIFE WITHOUT THE POSSIBILITY

7

OF PAROLE plus an EQUAL AND CONSECUTIVE LIFE

8

POSSIBILITY OF PAROLE for use of a deadly weapon and PAY $112,646.27

9

RESTITUTION for Count I and SENTENCED to Nevada Department of Prisons for

10

FIFTEEN (15) YEARS plus an EQUAL AND CONSECUTIVE FIFTEEN (15) YEARS for

11

use of a deadly weapon for Count II, to be served CONSECUTIVELY to Count I and

12

SENTENCED to Nevada Department of Prisons for FIFTEEN (15) YEARS plus an EQUAL

13

AND CONSECUTIVE FIFTEEN ( 15) YEARS for the use of a deadly weapon for Count III,

14

to be served CONSECUTIVELY to Count II and SENTENCED to Nevada Department of

15

Prisons for FIFTEEN (15) YEARS plus an EQUAL AND CONSECUTIVE (15) YEARS for

16

use of a deadly weapon for Count IV, to be served CONCURRENTLY with Count III and

17

SENTENCED to Nevada Department of Prisons for SEVEN AND ONE HALF (7 1/2 )

18

YEARS plus an EQUAL AND CONSECUTIVE SEVEN AND ONE HALF (7 ½) YEARS

19

for the use of a deadly weapon for Count V, to be served CONCURRENTLY with Counts

20

III and IV. Said sentence to be served CONCURRENTLY with case C98647 with NO

21

Credit for Time Served.

22

DISMISSED.

WITHOUT THE

COURT ORDERED, COUNTS VI, VII, AND VIII ARE

23

WHEREAS, thereafter, on the 30th day of January, 2007, the Defendant filed a

24

petition for writ of habeas corpus (post-conviction). This cause having come on for hearing

25

before the Honorable Lee Gates, District Judge, on the 20th day of June, 2007, the Defendant

26

being present with his counsel JOEL M. MANN, the Respondent being represented by

27

DAVID ROGER, District Attorney, by and through JAMES SWEETIN, Chief Deputy

28

District Attorney, and the Court having considered this matter, including briefs, transcripts,
2

P;IWPDOCS\JUDG\305\30589503.DOC

EOR1671

App.0029
Case 2:12-cv-009.APG-VCF Document 45-6 Filedj/17/14 Page 4 of 4

l

arguments of counsels, and documents on file herein, now therefore, the Court did find that

2

the Defendant's convictions and sentences for COUNT I - MURDER IN THE FIRST

3

DEGREE WITH THE USE OF A DEADLY WEAPON (Felony); COUNT II - ATTEMPT

4

MURDER WITH USE OF A DEADLY WEAPON (Felony); be OVERTURNED AND

5

VACATED pursuant to the Court's Findings of Fact and Conclusions of Law.

6

WHEREAS, the State of Nevada appealed the decision by Judge Lee Gates, which

7

granted the Defendant's Petition for Writ of Habeas Corpus overturning and vacating Count

8

I - Murder With Use of a Deadly Weapon and Count II - Attempt Murder With Use of a

9

Deadly Weapon.

10

THEREAFTER, on January 20, 2009, the Nevada Supreme Court issued and

11

ORDERED the judgment of the District Court REVERSED AND REMANDED this matter

12

to the District Court for proceedings consistent with this order.

13

THEREAFTER, Count 1 - MURDER WITH USE OF A DEADLY WEAPON - with

14

a sentence of LIFE WITHOUT THE POSSIBILITY OF PAROLE plus an EQUAL AND

15

CONSECUTIVE LIFE WITHOUT THE POSSIBILITY OF PAROLE and Count 2 -

16

ATTEMPT MURDER WITH USE OF A DEADLY WEAPON with a sentence of FIFTEEN

17

( 15) YEARS plus an EQUAL AND CONSECUTIVE FIFTEEN ( 15) YEARS are hereby

18

REINSTATED.

19

20
21

THEREFORE, the Clerk of the above entitled Court is hereby directed to enter this
Judgment of Conviction as part of the record in the above entitled matter.
DATED this

__Jft__ day of March, 2012.

22
23
24

25

26
27

28

98F05895A:abf
3

P:\WPDOCS\JUDG\305\30589503.DOC

EOR1672

App.0030
ase 2:12-cv-ornlt-:-APG-VCF Document 40-2 File./17/14 Page 2 of 59

1~Y

1

INST

2

3
4

5
DISTRICT COURT
CLARK COUNTY, NEV ADA

6

7
8

THE STATE OF NEVADA,

9

10
11

Plaintiff,
-vs-

~

)

T ANIKO CURT SMITH, # 104463 2,
RODNEY MANUEL HARRIS, #0855307

12
13

)
)

Defendant(s).

)
)

Case No.
Dept. No.
Docket

gl25993
p

}
)
)
)
)

14
15

16

INSTRUCTIONS TO THE JURY (INSTRUCTION NO. I)

MEMBERS OF THE JURY:

17

It is now my duty as judge to instruct you in the law that applies to this case. It is your duty as

18

jurors to follow these instructions and to apply the rules of law to the facts as you find them from the

19

evidence.

20

You must not be concerned with the wisdom of any rule of law stated in these instructions.

21

Regardless of any opinion you may have as to what the law ought to be, it would be a violation of your

22

oath to base a verdict upon any other view of the law than that given in the instructions of the Court.

23
24

25
26

27
28

EOR1215

App.0031
Case 2:12-cv-004I-APG-VCF Document 40-2 File./17/14 Page 3 of 59

INSTRUCTION NO. _ __

1
2

If, in these instmctions, any rule, direction or idea is repeated or stated in different ways,

3

no emphasis thereon is intended by me and none may be inferred by you. For that reason, you

4

are not to single out any certain sentence or any individual point or instruction and ignore the

5 others, but you are to consider all the instructions as a whole and regard each in the light of all
6
7

the others.

The order in which the instructions are given has no significance as to their relative

8 impm1ance.
9

10
11

12
13

14
15
16
17

18
19
20
21
22
23
24
25

26
27
28

EOR1216

App.0032
'

'

ase 2:12-cv-OO.-APG-VCF Document 40-2 File./17/14 Page 4 of 59

1

INSTRUCTION N O . ~

2

An Amended Indictment as to TANIKO CURT SMITH is but a formal method of accusing a

3

person of a crime and is not of itself any evidence of his guilt.

4

In this case, it is charged in an Indictment/Information that on or between July 16, 1993, and

5

August 4, 1993, the Defendant committed the offenses of MURDER WITH USE OF A DEADLY

6

\VEAPON (Felony - NRS 200.010, 200.030, 193.165); ATTEMPT MURDER WITH USE OF A

7

DEADLY WEAPON (Felony-NRS 200.010, 200.030, 193.330,193.165); ROBBERY WITH USE

8

OF A DEADLY WEAPON (Felony - NRS 200.380, 193,165); ATTEMPT ROBBERY WITH USE

9

OF A DEADLY \VEAPON (Felony - NRS 200.380, 193.330, 193,165); and ATTEMPT GRAND

10

LARCENY AUTO (Felony- NRS 205.220, 193.330),

11

COUNT I - MURDER WITH USE OF A DEADLY WEAPON

12

TANIKO CURT SMITH and RICHARD CHARLES GASTON, aka Rico Gaston, did, on or

13

between July 27, 1993, and August 4, 1993, then and there, without authority of law and with malice

14

aforethought, wilfully and feloniously kill MARIO WESLEY, a human being, by shooting at or into the

15

neck and/or head of the said MARIO WESLEY with a deadly weapon, to-wit: a firearm, resulting in the

16

death of the said MARIO WESLEY on August 4, 1993, said Defendants and an unidentified male being

17

responsible under the following theories of criminal liability, to-wit:

18

Murder: Defendants and an unidentified male committed the murder in the perpetration or attempted

19

perpetration of robbery; (3) Aiding or Abetting: The said Defendants and an unidentified male aiding or

20

abetting each other by counsel and encouragement and by entering into a course of conduct whereby

21

TANIKO CURT SMITH locked the door to May-D's Restaurant and followed the said MARIO

22

WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and

23

Defendant RICHARD CHARLES GASTON, aka Ricco Gaston acting as lookout, and Defendants and

24

an unidentified male approached MARIO \VESLEY and J. CHRISTOPHER BROWN, and one or more

25

of the suspects displayed said firearm, and one or more of the suspects ordered MARIO WESLEY and

26

J. CHRISTOPHER BROWN to lay down, while demanding their wallets and keys, after which one or

27

more of the suspects shot the said MARIO WESLEY.

28

///

(1) Premeditation; (2) Felony

EOR1217

App.0033
ase 2:12-cv-009-APG-VCF Document 40-2 File./17/14 Page 5 of 59

1

COUNT II - ATTEMPT MURDER WITH USE OF A DEADLY WEAPON

2

T ANIKO CURT SMITH and RICHARD CHARLES GASTON, aka Rico Gaston, did, on or

3

between July 27, 1993, and August 4, 1993, then and there, without authority of law and with malice

4

aforethought, wilfully and feloniously attempt to kill J. CHRISTOPHER BROWN, a human being, by

5

shooting at or into the legs of the said J. CHRISTOPHER BROWN with a deadly weapon, to-wit: a

6

firearm, the said Defendants, DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

7

aiding or abetting each other by counsel and encouragement and by entering into a course of conduct

8

whereby TANIKO CURT SMITH locked the door to May-B's Restaurant and followed the said MARIO

9

WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and

10

Defendant RICHARD CHARLES GASTON, aka Ricco Gaston acting as lookout, and Defendants

11

DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

12

WESLEY and J. CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and

13

one or more of the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down,

14

while demanding their wallets and keys, after which one or more of the suspects shot the said J.

15

CHRISTOPHER BROWN.

16

COUNT III - ROBBERY WITH USE OF A DEADLY WEAPON

approached MARIO

17

T ANIKO CURT SMITH and RICHARD CHARLES GASTON, aka Rico Gaston, did, on or

18

about July 27, 1993, then and there wilfully, unlawfully, and feloniously take personal property, to-wit:

19

wallet and/or lawful money of the United States and/or jewelry, from the person of MARIO WESLEY,

20

or in his presence, by means of force or violence, or fear of injury to, and without the consent and against

21

the will of the said MARIO WESLEY, said Defendants using a deadly weapon, to-wit: a firearm, during

22

the commission of said crime, in the following manner, to-wit:

23

DEANDRE ROBINSON and RODNEY MANUEL HARRIS, aiding or abetting each other by counsel

24

and encouragement and by entering into a course of conduct whereby T ANIKO CURT SMITH locked

25

the door to May-B's Restaurant and followed the said MARIO \:VESLEY and J. CHRISTOPHER

26

BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and Defendant RICHARD CHARLES

27

GASTON, aka Ricco Gaston acting as lookout, and Defendants, DARNELL DEANDRE ROBINSON

28

and RODNEY MANUEL HARRIS, approached MARIO WESLEY and J. CHRISTOPHER BROWN,

the said Defendants DARNELL

EOR1218

App.0034
ase 2:12-cv-009-APG-VCF Document 40-2 File.17/14 Page 6 of 59

1 and one or more of the suspects displayed said firearm, and one or more of the suspects ordered MARIO
2

WESLEY and J. CHRISTOPHER BROWN to lay down, while demanding their wallets and keys, after

3

which one or more of the suspects took said property from MARIO WESLEY.

4

COUNT IV - ROBBERY WITH USE OF A DEADLY WEAPON

5

TANIKO CURT SMITH and RICHARD CHARLES GASTON, aka Rico Gaston, did, on or

6

about July 27, 1993, then and there wilfully, unlawfully, and feloniously take personal property, to-wit:

7

wallet and/or lawful money of the United States and/or jewelry, from the person of J. CHRISTOPHER

8 BROWN or in his presence, by means of force or violence, or fear of injury to, and without the consent
9

and against the will of the said J. CHRISTOPHER BROWN, said Defendants using a deadly weapon,

10

to-wit: a firearm, during the commission of said crime, in the following manner, to-wit: the said

11

Defendants, DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS, aiding or

12

abetting each other by counsel and encouragement and by entering into a course of conduct whereby

13

TANIKO CURT SMITH locked the door to May-B's Restaurant and followed the said MARIO

14

WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and

15

Defendant RICHARD CHARLES GASTON, aka Ricco Gaston acting as lookout, and Defendants,

16

DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

17

WESLEY and J. CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and

18

one or more of the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down,

19

while demanding their wallets and keys, after which one or more of the suspects took said property from

20

I. CHRJSTOPHER BROWN.

21

COUNT V - ATTEMPT ROBBERY WITH USE OF A DEADLY WEAPON

approached MARIO

22

TANIKO CURT SMITII and RICHARD CHARLES GASTON, aka Rico Gaston, did, on or

23

about July 27, 1993, then and there wilfully, unlawfully, and feloniously attempt to take personal

24

property, to-wit: a 1987 Pontiac Firebircl, bearing Nevada License No. 03195N, from the person of J.

25

CHRISTOPHER BROWN or in his presence, by means of force or violence, or fear of injury to, and

26

without the consent and against the will of the said J. CHRISTOPHER BROWN, and/or demanding said

27

property, said Defendants, DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

28

using a deadly weapon, to-wit: a firearm, during the commission of said crime, in the following manner,

EOR1219

App.0035
ase 2:12-cv-O~•-;PG-VCF Document 40-2 File./17/14 Page 7 of 59

1

to-wit: the said Defendants, DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

2

aiding or abetting each other by counsel and encouragement and by entering into a course of conduct

3

whereby T ANIKO CURT SMITH locked the door to May-B's Restaurant and followed the said MARIO

4

WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and

5 Defendant RICHARD CHARLES GASTON1 aka Ricco Gaston acting as lookouti and Defendants,
6

DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

7

WESLEY and J. CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and

8

one or more of the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down,

9

while demanding their wallets and keys, after which one or more of the suspects attempted to take said

10

vehicle, but could not get it started.

11

COUNT VI - ATTEMPT GRAND LARCENY AUTO

approached MARIO

12

TANIKO CURT SMITH and RICHARD CHARLES GASTON, aka Rico Gaston did, on or

13

about July 27, 1993, then and there wilfully, unlawfully, and feloniously, with intent to deprive the owner

14

permanently thereof, attempt to steal, take, and drive away the motor vehicle of J. CHRISTOPHER

15

BROWN, to-wit: a 1987 Pontiac Firebird, bearing Nevada License No. 03195N, in the following manner,

16

to-wit: the said Defendants, DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

17

aiding or abetting each other by counsel and encouragement and by entering into a course of conduct

18

whereby TANIKO CURT SMITH locked the door to May-B's Restaurant and followed the said MARIO

19

WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and

20

Defendant RICHARD CHARLES GASTON, aka Ricco Gaston acting as lookout, and Defendants,

21

DARNELL DEANDRE ROBINSON and RODNEY MANUEL HARRIS,

22

WESLEY and J. CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and

23

one or more of the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down,

24

while demanding their wallets and keys, after which one or more of the suspects attempted to take said

25

vehicle, but could not get it started.

26

approached MARIO

It is the duty of the jury to apply the rules of law contained in these instructions to the facts of

27

the case and determine whether or not the Defendant is guilty of the offense charged.

28

Each charge and the evidence pertaining to it should be considered separately. The fact that you may find

EOR1220

App.0036
ase 2:12-cv-O~•-APG-VCF Document 40-2 File./17/14 Page 8 of 59

1 a defendant guilty or not guilty as to one of the offenses charged should not control your verdict as to
2

any other offense charged against TANIKO CURT SMITH.

3

4

5
6
7

8
9

10

11
12

13
14
15
16

17
18
19

20
21
22

23
24
25

26

27
28

EOR1221

App.0037
ase 2:12-cv-009-APG-VCF Document 40-2

File9"117/14 Page 9 of 59

INSTRUCTION NO.

1

2
3

_'j-___

An Amended Information as to RODNEY MANUEL HARRIS is but a formal method of
accusing a person of a crime and is not of itself any evidence of his guilt.

4

In this case, it is charged in an Amended Information that on between July 27, 1993, and August

5

4, 1993, the Defendants committed the offenses of MURDER WITH USE OF A DEADLY WEAPON

6

(Felony - NRS 200.010, 200.030, 193.165); ATTEMPT MURDER WITH USE OF A DEADLY

7

WEAPON (Felony - NRS 200.010, 200.030, 193.330, 193.165); ROBBERY WITH USE OF A

8

DEADLY WEAPON (Felony-NRS 200.380, 193.165); ATTEMPT ROBBERY "WITH USE OF'

9

A DEADLY WEAPON (Felony - NRS 200.380, 193.330, 193.165); and ATTEMPT GRAND

10

LARCENY AUTO (Felony - NRS 205.220, 193.330).

11

COUNT I - MURDER WITH USE OF A DEADLY \VEAPON

12

did, on or between July 27, 1993, and August 4, 1993, then and there, without authority of law

13

and with malice aforethought, wilfully and feloniously kill MARIO WESLEY, a human being, by

14

shooting at and into the neck and/or head of the said MARIO WESLEY with a deadly weapon, to-wit:

15

a firearm, resulting in the death of the said MARIO WESLEY, on August 4, 1993, the said Defendant,

16

RODNEY MANUEL HARRIS, , along with DARNELL DEANDRE ROBINSON, RICHARD

17

CHARLES GASTON and TANIKO CURT SMITH being responsible under the following theories of

18

criminal liability, to-wit: (1) Premeditation; (2) Felony Murder; Defendant and DARNELL DEANDRE

19

ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT SMITH committed the murder

20

in the perpetration or attempted perpetration of robbery; (3) Aiding or Abetting; the said Defendant along

21

with DARNELL DEANDRE ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT

22

SMITH aiding or abetting each other by counsel and encouragement and by entering into a course of

23

conduct whereby RICHARD CHARLES GASTON and DARNELL DEANDRE ROBINSON left May-

24

B 1s Restaurant, then TANIKO CURT SMITH locked the door to May-B's Restaurant and followed the

25

said MARIO WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER

26

BROWN, and Defendant RODNEY MANUEL HARRIS, , DARNELL DEANDRE ROBINSON,

27

RICHARD CHARLES GASTON and T ANIKO CURT SMITH approached MARIO WESLEY and J.

28

CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and one or more of

EOR1222

App.0038
se 2:12-cv-0099"APG-VCF Document 40-2 Filed.17/14 Page 10 of 59

1 the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down, while demanding
2

their wallets and keys, after which one or more of the suspects shot the said MARIO WESLEY.

3

COUNT II - ATTEMPT MURDER WITH USE OF A DEADLY WEAPON

4

did, on or about July 27, 1993, then and there, without authority of law and malice aforethought,

5 wilfully and feloniously attempt to kill J. CHRISTOPHER BROWN, a human being, by shooting at and
6

into the legs of the said J. CHRISTOPHER BROWN with a deadly weapon, to-wit: a firearm, in the

7

following manner, to-wit: the said Defendant RODNEY MANUEL HARRIS, , DARNELL DAENDRE

8 ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT SMITH aiding or abetting each
9

other by counsel and encouragement and by entering into a course of conduct whereby RICHARD

10

CHARLES GASTON and DARNELL DEANDRE ROBINS left May-B's Restaurant, then TANIKO

11

CURT SMITH locked the door to May-B's Restaurant and followed the said MARIO WESLEY and J.

12

CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and Defendant

13

RODNEY MANUEL HARRIS, , DARNELL DEANDRE ROBINSON, RICHARD CHARLES

14

GASTON and TANIKO CURT SMITH approached MARIO WESLEY and J. CHRISTOPHER

15

BROWN, and one or more of the suspects displayed said firearm, and one or more of the suspects

16

ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down, while demanding their wallets

17

and keys, after which one or more of the suspects shot the said J. CHRISTOPHER BROWN.

18

COUNT III - ROBBERY WITH USE OF A DEADLY WEAPON

19

did, on or about July 27, 1993, then and there wilfully, unlawfully, and feloniously take personal

20

property, to-wit: wallet and/or lawful money of the United States and/or jewelry, from the person of

21

MARIO WESLEY, or in his presence, by means of force or violence, or fear of injury to, and without

22

the consent of the said MARIO WESLEY, said Defendant RODNEY MANUEL HARRIS, , and

23

DARNELL DEANDRE ROBINSON using a deadly weapon, to-wit: a firearm, during the commission

24

of said crime, in the following manner, to-wit: the said Defendant RODNEY MANUEL HARRIS, ,

25

DARNELL DEANDRE ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT SMITH

26

aiding or abetting each other by counsel and encouragement and by entering into a course of conduct

27

whereby RICHARD CHARLES GASTON and DARNELL DEANDRE ROBINSON left May-B's

28

Restaurant, and followed the said MARIO WESLEY and J. CHRISTOPHER BROWN outside to the

EOR1223

App.0039
se 2:12-cv-O~.~PG-VCF DOCU!llent 40-2 Filed.17/14 Page 11 of 59

1

vehicle of J. CHRISTOPHER BROWN, and Defendant RODNEY MANUEL HARRIS, , DARNELL

2

DEANDRE ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT SMITH approached

3

MARIO WESLEY and J. CHRISTOPHER BROWN, and one or more of the suspects displayed said

4

firearm, and one or more of the suspects ordered MARIO WESLEY and J. CHRISTOPHER BROWN

5

to lay down, while demanding their wallets and keys, after which one or more of the suspects shot the

6

said J. CHRISTOPHER BROWN.

7

COUNT IV - ROBBERY WITH USE OF A DEADLY WEAPON

8

did, on or about July 27, 1993, then and there wilfully, unlawfully, and feloniously take personal

9

property, to-wit: wallet and/or lawful money of the United States and/or jewelry, from the person of J.

10

CHRISTOPHER BROWN, or in his presence, by means of force or violence, or fear of injury to, and

11

without the consent and against the will of the said J. CHRISTOPHER BROWN, said Defendant

12

RODNEY MANUEL HARRIS, , and DARNELL DEANDRE ROBINSON using a deadly weapon, to-

13

wit: a firearm, during the commission of said crime, in the following manner, to-wit: the said Defendant

14

RODNEY MANUEL HARRIS, , DARNELL DAENDRE ROBINSON, RICHARD CHARLES

15

GASTON and TANIKO CURT SMITH aiding or abetting each other by counsel and encouragement and

16

by entering into a course of conduct whereby RICHARD CHARLES GASTON and DARNELL

17

DEANDRE ROBINSON left May-B's Restaurant, and followed the said MARIO WESLEY and J.

18

CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER BROWN, and Defendant

19

RODNEY MANUEL HARRIS, , DARNELL DAENDRE ROBINSON, RICHARD CHARLES

20

GASTON and TANIKO CURT SMITH approached MARIO WESLEY and J. CHRISTOPHER

21

BROWN, and one or more of the suspects displayed said firearm, and one or more of the suspects

22

ordered MARIO \VESLEY and J. CHRISTOPHER BROWN to lay down, while demanding their wallets

23

and keys, after which one or more of the suspects shot the said J. CHRISTOPHER BROWN.

24

COUNT V - ATTEMPT ROBBERY WITH USE OF A DEADLY WEAPON

25

did, on or about July 27, 1993, then and there wilfolly, unlawfully, and feloniously attempt to take

26

personal property, to-wit: 1 1987 Pontiac Firebird, bearing Nevada License No. 03195N, from the person

27

of J. CHRISTOPHER BROWN, or in his presence, by means of force or violence, or fear of injury to,

28

and without the consent and against the will of the said J. CHRISTOPHER BROWN, and/or by

EOR1224

App.0040
se 2:12-cv-009.APG-VCF Document 40-2 Filed.17/14 Page 12 of 59

1

demanding said property, said Defendant RODNEY MANUEL HARRIS, , and DARNELL DEANDRE

2

ROBINSON using a deadly weapon, to-wit: a firearm, during the commission of said crime, in the

3

following manner, to-wit: the said Defendant RODNEY MANUEL HARRIS, , DARNELL DAENDRE

4

ROBINSON, RICHARD CHARLES GASTON and T ANIKO CURT SMITH aiding or abetting each

5

other by counsel and encouragement and by entering into a course of conduct whereby RICHARD

6

CHARLES GASTON and DARNELL DEANDRE ROBINSON left May-B's Restaurant, then T ANIKO

7

CURT S:MITH locked the door to May-B's Restaurant and followed the said MARIO WESLEY and J.

8

CHRISTOPHER BROWN outside Lo the vehicle of J. CHRISTOPHER BROWN, and Defendant

9

RODNEY MANUEL HARRIS, ,

DARNELL DAENDRE ROBINSON, RICHARD CHARLES

10

GASTON and TANIKO CURT SMITH approached MARTO WESLEY and J. CHRISTOPHER

11

BROWN, and one or more of the suspects displayed said firearm, and one or more of the suspects

12

ordered MARIO WESLEY and J. CHRISTOPHER BROWN to lay down, after which one or more of

13

the suspects attempted to take said vehicle, but could not get it started.

14

COUNT VI - ATTEMPT GRAND LARCENY AUTO

15

did, on or about July 27, 1993, then and there wilfully, unlawfully, and feloniously, with intent

16

to deprive the owner permanently thereof, attempt to steal, take, and drive away the motor vehicle of

17

J. CHRISTOPHER BROWN, to-wit: a 1987 Pontiac Firebird, bearing Nevada License No. 03195N,

18

in the following manner, to-wit: the said Defendant RODNEY MANUEL HARRIS, , DARNELL

19

DEANDRE ROBINSON, RICHARD CHARLES GASTON and TANIKO CURT SMITH

20

aiding or abetting each other by counsel and encouragement and by entering into a course of conduct

21

whereby RICHARD CHARLES GASTON and DARNELL DEANDRE ROBINSON left May-B's

22

Restaurant, then TANIKO CURT SMITH locked the door to May-B's Restaurant and followed the said

23

MARIO WESLEY and J. CHRISTOPHER BROWN outside to the vehicle of J. CHRISTOPHER

24

BROWN, and Defendant RODNEY MANUEL HARRIS,

25

RICHARD CHARLES GASTON and TANIKO CURT SMITH approached MARIO WESLEY and J.

26

CHRISTOPHER BROWN, and one or more of the suspects displayed said firearm, and one or more of

27

the suspects ordered MAR.IO WESLEY and J. CHRISTOPHER BROWN to lay down, after which one

28

or more of the suspects attempted to take said vehicle from J. CHRISTOPHER BROWN, but could not

DARNELL DEANDRE ROBINSON,

EOR1225

App.0041
se 2:12-cv-00.APG-VCF DocuITTent 40-2 Filed-17/14 Page 13 of 59

1 get it started.
2

Each charge and the evidence pertaining to it should be considered separately. The fact that you

3

may find a defendant guilty or not guilty as to one of the ottenses charged should not control your verdict

4

as to any other offense charged against RODNEY MANUEL HARRIS.

5
6

It is the duty of the jury to apply the rules of law contained in these instructions to the facts of
the case and determine whether or not the Defendants are guilty of the offenses charged.

7
8
9

10
11

12
13

14
15
16
17

18
19

20
21
22
23

24

25

26
27
28

EOR1226

App.0042
- Case 2:12-cv-O~.A,PG-VCF Document 40-2 Filed-17/14 Page 14 of 59

INSTRUCTION NO.

1
2
3
4

_5__

The evidence which you are to consider in this case consists of the testimony of the
witnesses, the exhibits, and any facts admitted or agreed to by counsel.
There are two types of evidence; direct and circumstantial. Direct evidence is the

5 testimony of a person who claims to have personal knowledge of the commission of the crime
6

which has been charged, such as an eyewitness. Circumstantial evidence is the proof of a chain

7

of facts and circumstances which tend to show whether the Defendant is guilty or not guilty.

8

The law makes no distinction between the weight to be given either direct or circumstantial

9

evidence. Therefore, all of the evidence in the case, including the circumstantial evidence,

IO

should be considered by you in aniving at your verdict.

11

Statements, arguments and opinions of counsel are not evidence in the case. However,

12

if the attorneys stipulate to the existence of a fact, you must accept the stipulation as evidence

13

and regard that fact as proved.

14

You must not speculate to be h1.1e any insinuations suggested by a question asked a

15

witness. A question is not evidence and may be considered only as it supplies meaning to the

16

answer.

17

18
19
20

You must disregard any evidence to which an objection was sustained by the comt and

any evidence ordered sh·icken by the court.
Anything you may have seen or heard outside the comtroom is not evidence and must
also be disregarded.

21

22

23

24
25
26
27

28

EOR1227

App.0043
Case 2:12-cv-OO.APG-VCF Document 40-2 Filed-17/14 Page 15 of 59

INSTRUCTION NO.

l

L

2

The credibility or believability of a witness should be determined by his manner upon the

3

stand, his relationship to the pa1ties, his fears, motives, interests or feelings, his opportunity to

4

have observed the matter to which he testified, the reasonableness of his statements and the

5

strength or weakness of his recollections.

6

If you believe that a witness has lied about any material fact in the case, you may

7

disregard the entire testimony of that witness or any p01tion of his testimony which is not proved

8

by other evidence.

9

10
11

12
13
14

15
16
17

18

19

20
21

22
23

24
25

26
27

28

EOR1228

App.0044
Case 2:12-cv-0~9-APG-VCF Document 40-2 Filed4117/14 Page 16 of 59

INSTRUCTION NO.

l

2

_7,______

A witness who has special knowledge, skill, experience, training or education in a

3 paiticular science, profession or occupation is an expe1t witness. An expert witness may give
4 hts opinion as to any matter in which he is skilled.
5

You should consider such expert opinion and weigh the reasons, if any, given for it. You

6 are not bound, however, by such an opinion. Give it the weight to which you deem it entitled,
7

whether that be great or slight, and you may reject it, if, in your judgment, the reasons given for

8

it are unsound.

9

10

11

12
13
14

15
16

17
18
19

20
21

22
23
24
25

26
27

28

EOR1229

App.0045
Case 2:12-cv-OO.APG-VCF Document40-2 Filed.17/14 Page 17 of 59

INSTRUCTION NO.

L

2

The Defendant is presumed innocent until the contra1y is proved. This presumption

3

places upon the State the burden of proving beyond a reasonable doubt eve1y material element

4

of the crime charged and that the Defendant is the person who committed the offense.

s

A reasonable doubt is one based on reason. It is not mere possible doubt but is such a

6

doubt as would govern or control a person in the more weighty affairs of life. If the minds of

7 the jurors, after the entire comparison and consideration of all the evidence, are in such a
8

condition that they can say they feel an abiding conviction of the hl1th of the charge, there is not

9

a reasonable doubt. Doubt to be reasonable must be actual, not mere possibility or speculation.

10

If you have a reasonable doubt as to the guilt of the Defendant, he is entitled to a verdict

11

of not guilty.

12

13
14

15
16
17

18

19
20

21

22
23

24

25

26
27
28

EOR1230

App.0046
Case 2:12-cv-O~.APG-VCF Document 40-2 Filed-17/14 Page 18 of 59

INSTRUCTION NO.

1

L

2

You are here to detennine the guilt or innocence of the Defendant from the evidence in

3

the case. You arc not called upon to return a verdict as to the guilt or innocence of any other

4

person. So, if the evidence in the case convinces you beyond a reasonable doubt of the guilt of

5

the Defendant, you should so find, even though you may believe one or more persons are also

6

guilty.

7
8
9

10

11
12
13

14
15
16

17
18
19
20
21
22
23

24
25
26

27

28

EOR1231

App.0047
Case 2:12-cv-OO.APG-VCF Document 40-2 File./17/14 Page 19 of 59

INSTRUCTION NO.

1

_)_O__

2

Although you are to consider only the evidence in the case in reaching a verdict, you must

3

bring to the consideration of the evidence your everyday common sense and judgment as

4

reasonable men and women. Thus, you are not limited solely to what you see and hear as the

5

witnesses testify. You may draw reasonable inferences from the evidence which you feel are

6 justified in the light of common experience, keeping in mind that such inferences should not be
7

based on speculation or guess.

8

A verdict may never be influenced by sympathy, prejudice or public opinion. Your

9

decision should be the product of sincere judgment and sound discretion in accordance with

10

these mies of law.

11
12
13
14

15

16
17
18

19
20
21

22
23
24
25

26

27
28

EOR1232

App.0048
se 2:12-cv-009.APG-VCF Document 40-2 Filedel 7/14 Page 20 of 59

1

2

l_l__

INSTRUCTION NO. ____

In your deliberation you may not discuss or consider the subject of punishment. Your duty is

3 confined to the determination of the guilt or innocence of the Defendant.
4
5
6
7
8

9
10

11
12
13
14

15
16

17
18

19

20
21

22
23

24

25
26
27

28

EOR1233

App.0049
Case 2:12-cv-004t-APG-VCF Document 4.0-2 File-/17/14 Page 21 of 59

INSTRUCTION NO._

I

j 2---

2

If, dming your deliberation, you should desire to be fm1her infonned on any point of law

3

or hear again p011ions of the testimony, you must reduce your request to writing signed by the

4

foreperson. The officer will then return you to coutt where the infonnation sought will be given

5

you in the presence of, and after notice to, the distTict attorney and the Defendant and his

6 counsel.
7

Readbacks of testimony are time-consuming and are not encouraged unless you deem it

8 a necessity. Should you require a readback. you must carefully desc1ibe the testimony to be read
9 back so that the com1 repo11er can mnnge his notes. Remember, the comt is not at liberty to

10

supplement the evidence.

11
12

13
14

15

16
17

18
19

20
21
22

23
24

25
26
27
28

EOR1234

App.0050
Case 2:12-cv-oo4APG-VCF Document 40-2 Filed-17/14 Page 22 of

INSTRUCTION NO.

1

2
3

4
5

6
7

8

59

J3-

To constitute the crimes charged, there must exist a union or joint operation of an act
forbidden by law and an intent to do the act.
The intent with which an act is done is shown by the facts and circumstances surrounding
the case.

Do not confuse intent with motive. Motive is what prompts a person to act. Intent refers
only to the state of mind with which the act is done.

Motive is not an element of the crime charged and the State is not required to prove a

9 motive on the pait of the Defendant in order to convict. However, you may consider evidence
10 of motive or lack of motive as a circumstance in the case.
11
12

13
14

15
16

17
18
19

20
21

22
23
24

25

26
27

28

EOR1235

App.0051
l

Case 2:12-cv-OO.APG-VCF Document 40-2 File.17/14 Page 23 of 59

INSTRUCTION NO.

1

JY..,

2

Murder is the unlawful killing of a human being, with malice aforethought, either express or

3

implied. The unlawful killing may be effected by any of the various means by which death may be

4

occasioned.

5

6
7

8

9
10

11

12
13
14
15
16

17
18

19
20

21
22
23
24

25
26
27
28

EOR1236

App.0052
.

Case 2:12-cv-009·A~G-VCF Document 40-2 Filed-17/14 Page 24 of

1

2

INSTRUCTIONNO .

59

.l'laj

Any kind of willful, deliberate and premeditate killing with malice aforethought is

3 Murder of the First Degree.
4

5
6

7

Premeditation is a design, a determination to kill, formed in the mind of the killer
at any moment before or at the time of killing.
Premeditation need not be for a day, an hour or even a minute. It may be as
instantaneous as successive thoughts of the mind. If the jury believes from the evidence

8 that the act constituting the killing was preceded by and is the result of premeditation, no
9
10

11

matter how rapidly the premeditation is followed by the act constituting the killing, it is
willful, deliberate and premeditated murder .
.Premeditation is a question of fact for the jury and may be determined from the

12

facts and circumstances of the killing, such as the use of an instrument calculated to

13

produce death, the manner of the use and the circumstances surrounding the act.

14

15
16
17
18
19

20
21
22
23

24
25
26
27

28

EOR1237

App.0053
Case 2:12-cv-00--APG-VCF Document 4.0-2 File./17/14 Page 25 of

59

INSTRUCTIONNO.

1

>b

2

Malice aforethought, as used in the definition of Murder, means the intentional killing of another

3

human being without legal cause, legal excuse or what the law considers adequate provocation. The

4

condition of mind described as malice aforethought may rise, not alone from anger, hatred, revenge or

5

from particular ill will, spite, or grudge toward the person killed, but may result from any unjustifiable

6

or unlawful motive or purpose to injure another which proceeds from a heart fatally bent on mischief or

7

with reckless disregard of consequence and social duty. Malice aforethought does not imply deliberation

8

or the lapse of any considerable time between the malicious intention, but denotes rather an unlawful

9

purpose and design in contradistinction to accident and mischance.

10
11

12
13

14

15
16
17

18
19
20
21

22
23

24
25
26

27
28

EOR1238

App.0054
Case 2:12-cv-009.APG-VCF Document 40-2 Filed-17/14 Page 26 of 59

INSTRUCTION NO.

1

2
3
4

s

Ib

Express malice is that deliberate inter.don unlawfully to take away the life of a fellow creature,
which is manifested by external circumstances capable of proof.
Malice shall be implied when no considerable provocation appears, or when all the circumstances
of the killing show an abandoned and malignant heart.

6

7
8
9
10

11
12
13

14
15

16
17

18

19
20
21

22
23
24

25

26
27

28

EOR1239

App.0055
Case 2:12-cv-009-A~G-VCF Document 40-2 Filed-17/14 Page 27 of

59

INSTRUCTION

No./ 7

2

There are certain kinds of murder which carry with them conclusive evidence of malice

3

aforethought. One of these classes of murder is murder committed in the perpetration or attempted

4

perpetration of robbery. Therefore, a killing which is committed in the perpetration of robbery is deemed

5 to be murder of the first degree, whether the killing was intentional or unintentional or accidental. This
6

7
8
9

is called the Felony-Murder rule.

The Felony-Murder rule may be applied to this case even though the Defendant has not been charged
with the crime of Robbery.
The specific intent to perpetrate or attempt to perpetrate

l O robbery must be proven beyond a reasonable doubt.
ll

12

l3
14

15
16
17

18
19
20
21
22

23

24
25

26
27
28

EOR1240

App.0056
Case 2:12-cv-OO·A·PG-VCF Document 40-2 FilecAl/17/14 Page 28 of 59

INSTRUCTION NO.

1
2

/7 (tl_)

Where the purpose of the criminal act is to commit the dangerous felony of

3

Robbery, each individual runs the risk of having the venture end in homicide. Hence,

4

each is guilty of murder if one of them commits homicide in the perpetration of an agreed

5

upon robbery.

6
7

8
9
10

11
12

13
14

15
16
17

18
19
20

21
22

23
24
25
26
, 27
28

EOR1241

App.0057
Case 2:12-cv-OO.APG-VCF Document 40-2 File.17/14 Page 29 of 59

1

INSTRUCTIONN0.18__

2

You are instructed that if you find a defendant guilty of Murder of the First Degree, you must also

3

determine whether or not a deadly weapon was used in the commission of this crime.

4
5
6
7

8
9

10
11
12

13

14
15

16
17

18
19

20
21

22

23
24
25

26
27
28

EOR1242

App.0058
Case 2:12-cv-009.APG-VCF Document 40-2

Filed(t17/14 Page 30 of 59

1

INSTRUCTIONNO.d

2

A deadly weapon is any object, instrument or weapon which is use in such a manner as to be

3
4

5

capable of producing, or is likely to produce, death or great bodily injury.
You are instructed that a gun is a deadly weapon, and proof of its deadly capabilities is not
required.

6

7

8
9
10
11

12

13
14
15

16
17

18

19
20

21
22
23
24
25

26
27

28

EOR1243

App.0059
Case 2:12-cv-004t-APG-VCF Document 40-2

File1t,l17/14 Page 31 of 59

INSTRUCTIONN0.10

l
2

If you find beyond a reasonable doubt that a defendant committed Murder of the First Degree

3

With the Use of a Deadly Weapon, then you are instructed that the verdict of Murder oft he First Degree

4

With the Use of a Deadly Weapon is the appropriate verdict.

5

If, however, you find that a deadly weapon was not used in the commission of the Murder, but

6

you do find that a Murder was committed, then you are instructed that the verdict of Murder of the First

7

Degree Without the Use of a Deadly Weapon is the appropriate verdict.

8
9

You are instructed that you cannot return a verdict of both Murder of the First Degree With the
Use of a Deadly Weapon and Murder of the First Degree Without the Use of a Dendly Weapon.

10
11

12

l3

14
15
16
17

18

19
20
21
22
23

24
25

26
27

28

EOR1244

App.0060
Case 2:12-cv-OO.APG-VCF Document 40-2 File.17/14 Page 32 of 59

INSTRUCTIONN0.21
2

3

The offense of First Degree Murder, with which the defendant is charged in the Indictment,
necessarily includes the lesser offense of Second Degree Murder.

4

If the evidence is sufficient to support a finding of guilt of both the offense charged and a lesser

5

included offense, but you entertain a reasonable doubt as to which of the offenses the defendant is guilty,

6

it is your duty to find him guilty only of the lesser offense.

7

8
9

10

11
12
13

14

15
16
17

18
19

20
21
22

23
24

25

26
27
28

EOR1245

App.0061
Case 2:12-cv-009.APG-VCF Document 40-2 Filed-17/14 Page 33 of 59

INSTRUCTIONNO.

1
2

3
4

Murder of the Second Degree is murder with malice aforethought, but without the admixture of
premeditation.
Any murder which is not Murder of the First Degree is Murder of the Second Degree.

5
6

7
8
9

10
11
12

13

14
15

16
17

18

19

20
21

22
23
24

25

26
27
28

EOR1246

App.0062
'

Case 2:12-cv-OO.APG-VCF Document 40-2 Filed4t'17/14 Page 34 of 59

1

2
3

INSTRUCTIONNO.Z.

1

You are instructed that if you find a defendant guilty of Murder of the Second Degree you must
also determine whether or not a deadly weapon was used in the commission of this crime.

4

5

6

7
8

9

10
11
12

13
14
15
16
17

18

19

20
21

22
23
24
25

26
27

28

EOR1247

App.0063
Case 2:12-cv-OO.APG-VCF Document 40-2 File.17/14 Page 35 of 59

INSTRUCTIONN02

1

'I

2

If you find beyond a reasonable doubt that a defendant committed Murder of the Second Degree

3

With the Use of a Deadly Weapon, then you are instructed that the verdict of Murder of the Second

4

Degree With the Use of a Deadly Weapon is the appropriate verdict.

5

If, however, you find that a deadly weapon was not used in the commission of the murder, but

6

you do find that a murder was committed, then you are instructed that the verdict of Murder of Second

7

Degree Without the Use of a Deadly Weapon is the appropriate verdict.

8

You are instructed that you cannot return a verdict of both Murder of the Second Degree With

9

the Use ofa Deadly Weapon and Murder of the Second Degree Without the Use of a Deadly Weapon.

10
11
12

13

14
15

16
17

18
19

20
21

22
23
24
25

26
27

28

EOR1248

App.0064
Case 2:12-cv-009.APG-VCF Document 40-2 Filed-17/14 Page 36 of 59

INSTRUCTION NO.

1

z

2

The elements of an attempt to commit a crime are: l) the intent to commit the crime; 2)

3

perfonnance of some act towards its commission; and 3) failure to consummate its commission.

4

In detennining whether or not such an act was done. it is necessmy to distinguish between

5

mere preparation, on the one hand, and the actual commencement of the doing of the criminal

6

deed, on the other. Mere preparation, which may consist of planning the offense or of devising,

7

obtaining or airnnging the means for its commission, is not sufficient to constitute an attempt;

8

but acts of a person who intends to commit a crime will constitute an attempt where they

9

themselves clearly indicate a certain, unambiguous intent to commit that specific crime, and, in

10

themselves, are an immediate step in the present execution of the criminal design, the progress

11

of which would be completed unless interrupted by some circumstance not intended in the

12

original design.

13

14

15
16

17
18

19
20

21
22
23
24
25
26
27
28

EOR1249

App.0065
Case 2:12-cv-OO.APG-VCF Document 40-2 Filed

el

7/14 Page 37 of 59

INSTRUCTION NO.

1

2'

2

While it is true the ove1t act ought to be a direct unequivocal act done toward the commission

3

of the offense, whenever the design of a person to commit a crime is clearly shown, slight acts

4

done in furtherance thereof will constitute an attempt.

5
6
7
8

9

10

11
12
13

14

15
16

17
18
19

20
21

22
23

24
25

26

27
28

EOR1250

App.0066
Case 2:12-cv-O.-APG-VCF Document 40-2 File~/17/14 Page 38 of

59

INSTRUCTION NO.

1

27

2

When a person has once done things which constitute an attempt to commit a crime, he cannot

3

avoid responsibility by foiling to proceed furiher to commit that crime, either by reason of

4 voluntarily abandoning his purpose or because he was prevented or interfered with in completing

5 the crime.
6
7
8

9

10
11

12
13
14

15
16
17

18
19

20

21
22
23
24

25
26
27

28

EOR1251

App.0067
Case 2:12-cv-OO.APG-VCF Document 40-2 Filed.17/14 Page 39 of 59

INSTRUCTION

1
2

N0.2fJ

An act done with intent to commit a crime, and tending but failing to accomplish it, is an

3 attempt to commit that crime.
4

5
6

7
8
9

10

11
12
13
14
15
16

17

18

19

20
21

22

23
24

25
26
27

28

EOR1252

App.0068
Case 2:12-cv-OO.APG-VCF Document 40-2 Filed4lt17/14 Page 40 of 59

INSTRUCTION N O . ~

I
2

The elements of an attempt to commit murder are:

3

1) the intent to commit the murder;

4

2) perfom1ance of some act towards its commission; and

5

3) failure to consummate its commission.

6
7

8
9

10

11
12
13
14

15
16
17
18

19

20
21

22
23

24
25

26
27
28

EOR1253

App.0069
Case 2:12-cv-OO!--A~G-VCF Document 40-2 File&17/14 Page 41 of

1
2
3

INSTRUCTION

59

No30

You are instructed that if you find the defendant guilty of Attempt Murder you must also
detennine whether or not a deadly weapon was used in the commission of this crime.

4

5
6
7

8
9
10

11

12
13
14
15
16
17
18
19

20
21

22
23
24

25

26
27

28

EOR1254

App.0070
Case 2:12-cv-oo4A~G-VCF Document 40-2 Filed-17/14 Page 42 of 59

INSTRUCTION NO.

1

·.s I

2

If you find beyond a reasonable doubt that a defendant committed Attempt Murder with

3

the Use of a Deadly Weapon, then you are instructed that the verdict of Attempt Murder with

4

the Use of a Deadly Weapon is the appropriate verdict.

5

If, however, you find that a deadly weapon was not used in the commission of the

6 Attempt Murder, but you do find that an Attempt Murder was committed, then you are instructed

7 that the verdict of Attempt Murder without the Use of a Deadly Weapon is the approp1iate
8

9
10

verdict.
You are instructed that you cannot return a verdict of both Attempt Murder with the Use

of a Deadly Weapon and Attempt Murder without the Use of a Deadly Weapon.

11
12

13
14
15

16

17
18
19

20
21

22
23

24
25
26

27
28

EOR1255

App.0071
se 2:12-cv-OO.APG-VCF Document 40-2 File.17/14 Page 43 of 59

1

INSTRUCTION NO.

32

2

Robbery is the unlawful taking of personal property from the person of another, or in his

3

presence, against his will, by means of force or violence or fear of injury, immediate of future, to his

4

person or property. Such force or fear must be used to obtain or retain possession of the property, or

5

to prevent or overcome resistance to the taking, in either of which cases the degree of force is immaterial.

6

Such taking constitutes robbery whenever it appears that, although the taking was fully completed

7

without the knowledge of the person from whom taken, such knowledge was prevented by the use of

8

force or fear.

9
10

The value of property or money taken is not an element of the crime of Robbery, and it is only
necessary that the State prove the taking of some property or money.

11
12
13

14

15
16

17
18
19

20
21

22

23

24
25
26
27

28

EOR1256

App.0072
Case 2:12-cv-oo'.APG-VCF Document 40-2

Filed-17/14 Page 44 of 59

1

INSTRUCTION NO. ___.

2

In order to constitute robbery, the taking must be accomplished either by force or intimidation,

3

this element being the gist and distinguishing characteristic of the offense; but there need not be force

4

and intimidation, either being sufficient without the other.

5
6

7

8
9
10
11
12
13

14

15
16

17
18

19
20

21
22
23

24
25

26
27
28

EOR1257

App.0073
Case 2:12-cv-om·•APG-VCF Document 40-2 Filed-17/14 Page 45 of 59

INSTRUCTION

1

N03.f

2

It is unnecessary to prove both violence and intimidation. If the fact be attended with circumstances

3

of threatening word or gesture as in common experience is likely to create an apprehension of danger and

4

induce a man to part with his property for the safety of his person, it is robbery. It is not necessary to

5

prove actual fear, as the law will presume it in such a case.

6
7

8
9

10
11
12
13

14

15
16

17
18
19

20

21
22
23
24

25
26

27
28

EOR1258

App.0074
Case 2:12-cv-00.APG-VCF Document 40-2 Filed4Jt17/14 Page 46 of 59

J

1

INSTRUCTION NO.?

2

If you find the defendant guilty of robbery, you must also determine whether or not a deadly

3

weapon was used in the commission of this crime.

4

5
6

7

8
9

10
11
12
13

14

15
16

17
18
19

20
21
22
23

24

25
26
27

28

EOR1259

App.0075
Case 2:12-cv-004t-APG-VCF Document 40-2 File--/17/14 Page 47 of 59

INSTRUCTION NO.

1
2

3
4

lk.

If you find beyond a reasonable doubt that a defendant committed Robbery, then you are

instructed that the verdict of Robbery is the appropriate verdict.
If, however, you find that a deadly weapon was not used in the commission of the robbery, but

5 you do find that a robbery was committed, then you are instructed that the verdict of Robbery Without
6
7
8

the Use of a Deadly Weapon is the appropriate verdict.
You are instructed that you cannot return a verdict of both Robbery With the Use of a Deadly
Weapon and Robbery.

9

10
11

12
13

14

15
16
17

18
19
20
21
22
23

24
25
26
27
28

EOR1260

App.0076
2:12-cv-orn:9 -APG-VCF Document

1

2
3

FileJl/17/14 Page 48

59

INSTRUCTIO N

NO.Q

A person who attempts to steal, take or drive away the motor vehicle of another with the specific
intent to deprive him permanently of his property, is guilty of the crime of Attempt Grand Larceny.

4

5
6
7

8
9

10
11
12
13

14

15
16

17
18
19

20
21

22
23
24

25

26
27

28

EOR1261

App.0077
Case 2:12-cv-009-APG-VCF Document 40-2 File-/17/14 Page 49 of 59

_jg

INSTRUCTION NQ _

1

2

If you find that the defendant attempted to take the automobile with the intent to appropriate it

3

to his own use and with intent to abandon later the automobile in such circumstances as would render

4

its recovery by the owner difficult or unlikely, then you may find that the attempted taking was with the

5

specific intent to permanently deprive the owner of the property.

6

7
8

9

10
11
12

13
14

15
16

17

18

19

20
21

22
23

24
25

26
27
28

EOR1262

App.0078
ase 2:12-cv-OO.APG-VCF Document 40-2 Filed-17/14 Page 50 of 59

1

INSTRUCTION

N0.3J_

2

Mere presence at the scene of a c1ime or knowledge that a crime is being committed

3

is not sufficient to establish that a defendant is guilty of an offense, unless you find beyond

4

reasonable doubt that the defendant was a participant and not merely a knowing spectator.

5

However, the presence of a person at the scene of a crime and companionship with

6

another person engaged in the commission of the crime and a course of conduct before and

7

after the offense are circumstances which may be considered in dctetmining whether such

8

person aided and abetted the commission of that crime.

9
10

11
12

13
14

15
16
17

18
19

20
21
22

23

24

25

26
27
28

EOR1263

App.0079
Case 2:12-cv-ooseAPG-VCF Document 40-2 Filed-17/14 Page .51 of 59

I

INSTRUCTION NO.

1./..P

2

The flight of a person immediately after the commission of a crime, or after he is accused of a

3

crime, is not sufficient in itself to establish his guilt, but is a fact which, if proved, may be considered by

4

you in light of all other proved facts in deciding the question of his guilt or innocence. The weight to

5 which such circumstance is entitled is a matter for the jury to determine.
6

7
8
9
10
11

12
13
14

15
16
17

18
19
20
21

22
23
24
25

26

27
28

EOR1264

App.0080

1

INSTRUCTION NO.

_.i_

2

The Defendants have been charged with alternative counts of Attempt Robbery With Use of a

3

Deadly Weapon and Attempt Grand Larceny Auto. The Defendants may only be convicted of either

4

Attempt Robbery With Use of a Deadly Weapon or Attempt Grand Larceny Auto, they may not be

5

convicted of both Attempt Robbery With Use of a Deadly Weapon and Attempt Grand Larceny Auto.

6
7

8
9
10
11

12
13

14

15
16

17

18
19
20

21
22

23
24

25

26
27

28

EOR1265

App.0081
ase 2:12-cv-OO.APG-VCF Document 40-2 Filed-17/14 Page

1

53 of 59

INSTRUCTION NO.

'f2,_

2

It is a constitutional right of a defendant in a criminal trial that he may not be compelled to

3

testify. Thus the decision as to whether he should testify is left to the defendant on the advice and

4

counsel of his attorney. You must not draw any inference of guilt from the fact that he does not

5

testify, nor should this fact be discussed by you or enter into your deliberations in any way.

6
7

8
9

10

11
12
13

14

15
16
17
18

19
20
21

22

23
24

25

26
27

28

EOR1266

App.0082
0

se 2:12-cv-OO.A PG-VCF Document 40-2 Fi!ecAl/17/14 Page 54 of 59

1

INSTRUCTIONNO.

'i5

2

Evidence which tends to show that the defendant committed offenses other than that for

3

which he is on trial, if believed, was not received and may not be considered by you to prove that he

4

is a person of bad character or to prove that he has a disposition to commit crimes. Such evidence

5

was received and may be considered by you only for the limited purpose of proving the defendant's

6

preparation, intent, motive, plan, knowledge, identity or the absence of mistake or accident. You

7

must weigh this evidence in the same manner as you do all other evidence in the case.

8
9
10
11

12
13
14

15
16

17
18

19

20
21

22

23
24

25

26
27

28

EOR1267

App.0083
case 2:12-cv-ooa-;PG-VCF Document 40-2 File./17/14 Page 55 of 59

1
2
3

INSTRUCTION

NO.w

Where two or more persons are accused of committing a crime together, their guilt may be
established without proof that each personally did every act constituting the offense charged.

4

AH persons concerned in the commission of a crime who either directly and actively commit

5

the act constituting the offense or who knowingly and with criminal intent aid and abet in its

6

commission or, whether present or not, who advise and encourage its commission, are regarded by

7

the law as principals in the crime thus committed and are equally guilty thereof.

8

A person aids and abets the commission of a crime if he knowingly and with criminal intent

9

aids, promotes, encourages or instigates by act or advice, or by act and advice, the commission of

10
11
12

such crime.
The state is not required to prove precisely which defendant actually committed the crime and
which defendant aided and abetted.

13
14
15
16

17

18
19

20
21

22
23
24

25

26
27

28

EOR1268

App.0084
se 2:12-cv-004t-APG-VCF Document 40-2 Fi!ec4t.117/14 Page 56 of 59

INSTRUCTION

1

NO._'-f_,('
__

2

3

A

separate crime is charged against each defendant.

The

4

charges and the defendants have been joined for trial.

5

consider and decide the case of each defendant separately.

6

verdict as to one defendant should not control you verdict as to

7

any other defendant.

You must
Your

8

All of the instructions apply to each defendant (unless a

9

specific instruction states that it applies to only one of the

10

defendants).

11
12
13

14
16

16

17
18

19
20

21
22

23
24
25

26
27

28

EOR1269

App.0085
se 2:12-cv-orn--A.PG-VCF Document 40-2 Fi!ec8117/14 Page 57 of 59

INSTRUCTION NO,%,__

1
2
3

You are instructed that certain evidence has been introduced

4

relative to a carjacking of a pickup truck at Savon Drugs on or

5

about July 16, 1993 ..

6

7

In your deliberations, you are not to consider such evidence
against Rodney Harris.

8
9

10
11
12
13

14
16
16

17
18

19

20
21

22
23

24
25

26
27

28

EOR1270

App.0086
Case 2:12-cv-OO~·APG-VCF Document 40-2 Filed./17/14 Page 58 of 59

fNSTRUCTION NO.

1

<t7

2

When you retire to consider your verdict, you must select one of your number to act as

3

foreperson who will preside over your deliberation and will be your spokesman here in court.

4

During your deliberation, you will have all the exhibits which were admitted into

5

evidence, these written instructions and fo1ms of verdict which have been prepared for your

6 convenience.
7
8

Your verdict must be unanimous. As soon as you have agreed upon a verdict, have it
signed and dated by your foreperson and then return with it to this room.

9

10
11
12

13

14
15
16
17
18

19
20
21

22
23
24

25

26
27
28

EOR1271
L.

-------···----------..-

''

App.0087
Case 2:12-cv-OO·A~G-VCF Document 40-2 Filed.17/14 Page 59 of 59

1

INSTRUCTION NO.

!f1i__

2

Now you will listen to the arguments of counsel who will endeavor to aid you-to reach

3

a proper verdict by refreshing in your minds the evidence and by showing the application thereof

4

to the law; but, whatever counsel may say, you will bear in mind that it is your duty to be

5

governed in your deliberation by the evidence as you understand it and remember it to be and

6

by the law as given to you in these instmctions, with the sole, fixed and steadfast purpose of

7

doing equal and exact justice between the Defendant and he State of Nevada.

8
9

10
11

12
13
14

15
16

17

18
19
20
21

22
23
24

25

26
27
28

EOR1272

